COMMODITY FUTURES TRADING COMMISSION

  SEMIANNUAL REPORT
        OF THE




   OFFICE OF THE
INSPECTOR GENERAL




 FOR THE PERIOD ENDING MARCH 31,2000
                    u.s. COMMODITY FUTURES TRADING COMMISSION
                                     Three Lafayette Centre
                          1155 21st Street, NW, Washington, DC 20581
                                    Telephone: (202) 418-5110
                                    Facsimile: (202) 418-5522


                                   May     31,     2000
    OFFICE OF
INSPEcroR GENERAL




  TO:                 William J.          Rainer
                      Chairman

  FROM:              A. Roy      LaVi£:r ~~~
                     Inspector Gene~al

  SUBJECT:            Semiannual Report                 of    the      Office   of   the
                      Inspector General

      Attached is the Semiannual Report of the
  Office of the Inspector General for the period
  from October 1, 1999 through March 31, 2000. This
  report is submitted to you in accordance with the
  requirements of Section 5 of the Inspector General
  Act of 1978, as amended.

      I appreciate            your      continuing            support      of   this
  office.


  Attachment
       OFFICE OF THE INSPECTOR GENERAL
    COMMODITY FUTURES TRADING COMMISSION

                 SEMIANNUAL REPORT
                FOR THE PERIOD FROM
        October 1, 1999 THROUGH March 31, 2000

                 T ABLE OF CONTENTS
SUMMARY OF OIG ACTIVITIES [including a description of
   significant problems, abuses, and deficiencies and a
   description of OIG recommendations for corrective action
   (Mandated by Section 5(a)(l) and (2) of the Act)]           1
   AUDITS                                                      1
   INVESTIGATIONS                                              2
   LEGISLATIVE AND REGULATORY REVIEWS                          3

OIG RESPONSIBILITIES                                           4

OIG RESOURCES                                                  5

CFTC PROGRAMS AND OPERATIONS                                   6

COMPLETED WORK                                                 6
   AUDITS [inc!uding a list of each audit report issued and
   a summary of each particularly significant report
   (Mandated by Section 5(a)(6) and (7) of the Act)]           6
   INVESTIGATIONS                                              7
   LEGISLATIVE AND REGULATORY REVIEWS                          9

AUDIT REPORTS OVER SIX MONTHS OLD                             13

    CORRECTIVE ACTION NOT COMPLETED [including an
    identification of each significant recommendation
    described in previous semiannual reports on which
    corrective action has not been completed (Mandated by
    Section 5(a)(3) of the Act)]                              13

    CORRECTIVE ACTION COMPLETED                               13
     MANAGEMENT DECISION NOT MADE [including a summary
     of each audit report issued before the commencement of the
     reporting period for which no management decision has been
     made by the end of the reporting period (including the date and
     title of each such report), an explanation of the reasons such a
     management decision has not been made, and a statelllent
     concerning the desired timetable for achieving a management
     decision on each such report (Mandated by Section 5(a)( 10) of
     the Act)]                                                      13

SUMMARY OF MATTERS REFERRED TO .PROSECUTIVE
   AUTHORITIES and the prosecutions and convictions which
   have resulted (Mandated by Section 5(a)(4) of the Act) ........ 13

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
   under Section 6(b)(2) concerning infornlation or assistance
   unreasonably refused or not provided (Mandated by Section
   5(a)(5) of the Act)                                                    14

REVISED MANAGEMENT DECISIONS [including description and
    ex pIa nat ion 0 f the rea son s for any s i g n i fi can t rev is e d
    management decision made during the reporting period
    (Mandated by Section 5(a)( 11) of the Act)]                            14

INSPECTOR GENERAL DISAGREEMENT [including information
    concerning any significant nlanageillent decision with which
    the Inspector General is in disagreelnent
    (Mandated by Section 5(a)( 12) of the Act)]                  14

CURRENT AUDITS                                                            14

GAO LIAISON                                                               19

STRATEGIC PLAN                                              ~             21

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL ...... 29

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
    (Mandated by Section 5(a)(8) of the Act)                              30

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT
    FUNDS BE PUT TO BETTER USE (Mandated by Section
    5 (a)(9) of the Act)                            31
            INDEX OF IG ACT REPORTING
                  REQUIREMENTS

Section 5(a)(l)                          I

Section 5(a)(2)                          I

Section 5(a)(3)                         13

Section 5 (a)( 4)                       13

Section S(a)(5)                         14

Section 5(a)(6)                          6

Section 5(a)(?)                          6

Section 5(a)(8)                         30

Section S(a)(9)                         31

Section 5(a)(10)                        13

Section 5(a)(1 I)                       14

Section S(a)(12)                        14
          SUMMARY OF OIG ACTIVITIES

AUDITS

    The primary objectives of the Office of the
Inspector General (OIG) of the Commodity Futures
Trading Commission (Commission, CFTC) are to help
promote long-term efficienc~ and effectiveness in
the administration and operation of the Commission
and to protect against fraud and abuse.  This
reporting period's OIG audit activities which are
listed below reflect these objectives.

Current   Audits

    The following are the audits being conducted
during the current reporting period and continuing
into the next reporting period.   (For additional
details, see the section on current audits
beginning on page 14.)

    Review of Enforcement Information
    Reguirements.  The objectives of this r.eview
    are to determine what the information needs of
    all levels in the Division of Enforcement are,
    whether the information needs are being met,
    and if the required information can be
    created, stored, and retrieved in a more
    effective and efficient manner.   (For
    additional details, see page 15.)

    Audit of CFTC's Lease of Space - Washington,
    D.C.  The objective of this audit is to
    determine if the Commission is complying with
    the requirements of the lease of space for its
    office in Washington, D.C.  The particular
    focus will be on the appropriateness of all
    base rental and escalation payments made under
    the lease.  The audit will cover lease
    payments from the inception of the            lease to
    date. {For additional details, see            page 18.}

   Review of Agency Compliance with GPRA.    The
   Government Performance and Results Act of
   1993{GPRA} requires federal agencies to
   develop strategic plans, prepare annual plans
   setting performance goals, and report annually
   on actual performance compared to goals.    The
   first report was due in March 2000.   The
   objective of this review is to determine how
   effectively the Commission is complying with
   GPRA's terms.   This will include an
   examination of the performance measures
   devised by the Commission and the systems used
   for gathering the data to report on those
   performance measures.   (For additional
   details, see page 18.)

Completed Audits

    No audit reports   were       issued during    this
r~porting period.


INVESTIGATIONS
    The Inspector General Act of 1978, as amended,
provides that the Inspector General may receive
and investigate complaints or information from the
Commission's employees concerning the possible.
existence of an activity constituting a violation
of law, rules or regulations, or mismanagement,
abuse of authority, or gross waste of funds, or a
substantial and specific danger to the public
health and safety.

    One investigation 'was pending as of the
beginning of the ~eporting period.   The OIG opened
one investigation during the reporting period and
completed two investigations.   No investigations



                              2
remained open at the end of the period.  (See the
section on investigations beginning on page 7.)

LEGISLATIVE AND REGULATORY REVIEWS

    The OIG reviews proposed and final ~FTC
regulations and legislation and selected exchange
rules using the following basic criteria:   whether
the agency:   (1) has identified specifically the
problem(s) to be addressed by the proposal; (2)
has defined through case study or data analysis a
clear link between the proposed solution and the
identified problem(s); (3) has specified clearly
the means to effectively and efficiently enforce
the proposal; (4) has assessed the likely
efficiency and effectiveness of alternative
solutions; (5) can reasonably document that the
proposal will yield positive net benefits over the
long term; and (6) has met the requirements of the
Regulatory Flexibility Act and the Paperwork
Reduction Act.

    The Regulatory Flexibility Act requires the
agency to evaluate the impact of its regulations
on small entities.  The Paperwork Reduction Act
requires the agency to manage effectively and
efficiently its information collections so that
they are the least burdensome necessary to achieve
the stipulated objectives. (For more detailed
descriptions of these reviews, see the section on
legislative and regulatory reviews beginning on
page 9.)

    Regulations   reviewed during   this   period
include:

    o   Proposed Amendment     to CFTC   Rule   1.41;

    o   Proposed Revisions to certain CFTC          Rules
        Relating to Reparationsi' and



                           3
    o   Chicago Mercantile Exchange (CME) Proposal
        to Increase its Speculative Contract Limit
        for Live Cattle.

Leqislative Activities

    The Inspector General has been heavily
involved in legislative activities as a member of
the IG's Legislation Committee. The 20 th
anniversary of the IG Act occasioned many
Congressional bills such as ones enhancing
independence. Congressional staff, and, in some
instances, members were briefed about the various
proposals.



I           O_I_G_R_E_S_PO_N_S_IB_I_L_I_T_IE_S      _

    The Office of the Inspector General in the
Commodity Futures Trading Commission was created
in accordance with the Inspector General Act of
1978 (P.L. 95-452), as amended by the Inspector
General Act Amendments of 1988 (P.L. 100-504).
The OIG was established to create an independent
unit to:

    o   Promote economy, efficiency, and
        effectiveness in the administration of
        CFTC programs and operations and to detect
        and prevent fraud and abuse in such
        programs and operations;

    o   Conduct and supervise audits and, where
        necessary, investigations relating to the
        administration of CFTC programs and
        operations;




                            4
   o    Review existing and proposed legislation
        and regulations and make recommendations
        concerning their impact on the economy and
        efficiency of CFTC programs and operations
        or the prevention and detection of fraud
        and abuse; and

   o    Keep the Chairman and Congress fully
        informed about any problems or
        deficiencies in the administration of CFTC
        programs and operations and provide
        recommendations for correction of these
        problems or deficiencies.

    Given that the CFTC does not have extensive
contracts or grant making authority, the OIG's
efforts have been focused on the review of
legislative and regulatory proposals and the
monitoring of internal CFTC operations.



                OIG RESOURCES

     The OIG consists of the Inspector General, two
professional staff members, and a secretary.   All
positions have been filled since January 2, 2000.
The present Inspector General assumed his position
on October 7, 1990.

    The OIG, on December 4, 1989, signed a
Memorandum of Understanding with the Office of
General Counsel (OGC).  This Memorandum details
the procedures that will be used to provide the
OIG with OGC legal services.  An OGC staff member
has been assigned to provide such services to the
OIG on an as-needed basis.




                         5
    CFTC PROGRAMS AND OPERATIONS

    The CFrC was established in 1974 as an
independent agency to regulate commodity futures
and options trading in the United States.  The
CFTC is headquartered in Washington, D.C., with
additional offices in Chicago, New York, Kansas
City, Los Angeles, and Minneapolis.

    The basic objectives of the CFTC are to
prevent manipulation of the markets, abusive trade
practices, and fraudulent activities; to maintain
effective oversight of the markets and self-
regulatory organizations; and to enforce the
Commodity Exchange Act and Commission rules
without hindering the futures markets' provision
of price discovery and risk shifting services. The
CFTC regulates the futures activities of brokerage
firms, salespersons, floor brokers, floor traders,
commodity pool operators, commodity trading
advisors, introducing brokers, and leverage
transaction merchants.  In addition, the agency
ensures the effective enforcement of exchange
rules, reviews the terms and conditions of
proposed futures contracts and the registration of
firms and individuals who provide advice or handle
customer funds, and oversees the activities of the
National Futures Association.



              COMPLETED WORK

AUDITS

    The OIG is required to conduct, supervise and
coordinate audits of CFTC programs and operations




                         6
and to ensure that the audits are conducted in
accordance with generally accepted government
auditing standards.  The OIG is also required to
recommend changes to existing and proposed CFTC
programs and operations to promote economy,
efficiency, and effectiveness and to prevent and
detect fraud and abuse.

    The purpose   of    these    audits    is   to   ensure    that:

    o   Funds have been expended in a                manner
        consistent with related laws,                regulations,
        and policies;

    o   Resources have been managed effectively
        and efficiently;

    o   Stipulated program objectives                have    been
        achieved; and

    o   Resource·s     have   been safeguarded.

    No audit reports      were       issued during     the
reporting period.

INVESTIGATIONS

    The Inspector General Act of 1978, as amended,
provides that the Inspector General may receive
and investigate complaints or information from the
Commission's employees concerning the possible
existence of an activity constituting a violation
of law, rules or regulations, or mismanagement,
abuse of authority, or gross waste of funds, or a
substantial and specific danger to the public
health and safety.

    There was one investigation pending as of the
beginning of the reporting period.  The OIG opened
one investigation during the reporting period and



                                 7
closed two investigations.  No investigations
remained open at the end of the period.

     In response to an allegation received from
CFTC employees that Exceeds with Distinction
ratings were held to approximately 10 percent of
total ratings in contravention of OPM regulations,
the Office of the Inspector General (OIG) opened
an investigation.   As a result of that
investigation, the OIG has determined that some
rating officials interpreted the "guidance" of
approximately 10% of all ratings as a quota or cap
on the number of Exceeds with Distinction ratings
which could be awarded.    This understanding
operated to deny Exceeds with Distinction ratings
to some employees who would otherwise have gotten
them.   The OIG recommended that the agency make
clear in a memorandum from the Chairman to all
CFTC employees that employees will be rated
against a set of predetermined standards and that
no limitation will be placed on the numbers or
-percentages of employees in any of the rating
categories.   The Chairman issued a memorandum
revoking the previous policy on February 15, 2000.

    In response to a request from the Acting
Executive Director, the Office of the Inspector
General (OIG) undertook an investigation of the
theft of transit vouchers from the desk of one of
the employees distributing the vouchers.  The
investigation was designed to determine what
conditions permitted the theft to take place and
what actions, if any, could be taken to avoid
future thefts.   As a result of that investigation
we recommend that the orientation of the
employee's desk be changed, that the employee be
provided with written instructions on the proper
method of securing transit vouchers, and that the
employee not leave transit vouchers unsecured and
unattended on her desk.



                         8
LEGISLATIVE AND REGULATORY REVIEWS

    As specified in Section 4 (a) (2) of the
Inspector General Act of 1978, the eIG reviews the
impact of existing and proposed legislation and
regulations on CFTC programs and operations and
makes recommendations, regarding more effective or
efficient alternatives or protections against
fraud and abuse.  The eIG also reviews exchange
rule proposals and changes.

    The eIG has notified the responsible Division
as to any concerns wi~h draft and final documents
for the legislation, rules or investigations
listed below.   Formal comments were not filed with
the Commission.   A summary of the principal
legislation, regulations and investigations
reviewed and the eIG review results follows.

RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS

1.    Petition for exemption from Dual Trading Ban
      of the Chicago Mercantile Exchange

Summary of Action

    The CME sought exemption for several of its
contracts from the dual trading prohibitions.

eIG   Review

    The eIG asked various questions which staff
responded to and clarified.  Draft orders have
been prepared by Trading and Markets staff.




                           9
2.    Petition for  exemption from Dual Trading Ban
      of the Chicago Board of Trade (CBT)

Summary of Action

      The CBT sought exemption for several of its
con t rae t s fro m the d u a 1 t r a din g p r ,0 h i b ~ t ion 5 •

eIG   Review

    The OIG queried staff about various                   issues
which staff responded to.  Draft orders                   have been
prepared by Trading and Markets staff.

3 .   Proposed Rule's Regarding Direct Foreign Order
      Transmittals by u.s. Persons (Proposed Rule
      30.12) .

Summary of Action

    Staff of the CFTC proposed a rule that would
allow certain foreign futures and options brokers
to receive directly foreign futures and options
orders from sophisticated u.S. customers.

eIG   Review

The eIG raised questions and offered suggestions.
Staff provided clarifying answers and adopted
several suggestions.   OIG expressed the value of
using relevant test groups in ascertaining the
value of disclosure, documents. Trading and Markets
staff is currently reviewing public comments.




                                    10
4.     Proposed Amendments regarding Performance Data
       and Disclosure for Commodity Trading Advisers
       (eTA) .


Summary of Action

    Staff proposed amendments that would require
rate of return performance measures used by aCTA
to be computed by dividing net performance by the
nominal account size.  Previously the CFTC had
required that actual deposited funds be used in
the denominator.

orG    Review

The orG urged staff to consider using a focus
group to determine the relative values of
disclosure of the two methods.  Trading and
Markets staff is currently reviewing public
comments.


RULE REVIEWS INITIATED THIS REPORTING PERIOD

1.     Proposed Amendment to CFTC Rule 1.41.

Summary of Action

     CFTC staff proposed an amendment to Rule 1.41
permitting contract markets to place new rules and
rule amendments into effect on the business day
following their receipt by the CFTC subject to
certain conditions.

orG    Review

     orG
      supported the staff action    and   recommended
approval to the Commission.




                           11
2.    Proposed Revisions to certain CFTC Ru1es
      Re1ating to Reparations.

Summary of Action

    Staff proposed rule changes that would result
in all reparation cases befng decided by Judgement
Officers.

eIG   Review

    eIG   recommended caution   in departing   from
current   practice.

3.    Chicago Mercantile Exchange Proposal to
      Increase its Speculative Contract Limit for
      Live Cattle.

Summary of Action

    CME sought CFTC approval to increase its
single trader speculative trading limit during the
delivery month from 600 to 900 futures contracts.

eIG   Review

    eIG evaluated the proposal and expressed its
views to CFTC staff. CME withdrew the proposed
rule change after numerous negative public
comments.


Legislative Activities

    The IG has been heavily involved in
legislative activities as a member of the IG's
Legislation Committee. The 20 th anniversary of the
IG Act occasioned many Congressional bills such as
ones enhancing independence. Congressional staff
and, in some instances, members were briefed about
the various proposals.




                          12
 AUDIT REPORTS OVER SIX MONTHS OLD

CORRECTIVE ACTION NOT COMPLETED

    There were no instances of audit reports over
six months old where corrective action had not
been completed.

CORRECTIVE ACTION COMPLETED

    There were no instances of reports issued
before the commencement of the reporting period
for which corrective action had been completed by
the end of the reporting period.

MANAGEMENT DECISION NOT MADE

    There were no instances of reports issued
before the commencement of the reporting period
for which a management decision had not been made
by the end of the reporting period.



  SUMMAR·Y OF MATTERS REFERRED TO
      PROSECUTIVE AUTHORITIES

    No matters were referred to prosecutive
authorities during the reporting period.




                        13
SUMMARY OF EACH REPORT MADE TO THE
           AGENCY HEAD

    No reports were made to the agency head under
section 6 (b) (2) concerning information or
assistance unreasonably refused or not provided.



       REVISED MANAGEMENT DECISIONS
    No management decisions      were   revised during
the reporting period.



      INSPECTOR GENERAL DISAGREEMENT

    The Inspector General does not disagree with
any management decisions on OIG recommendations.



                 CURRENT AUDITS

      The audit agenda and priorities for the OIG
are   determined based on the following factors:

      o   Statutory and   regulatory    requirements;

      o   Adequacy of internal control systems as
          indicated by vulnerability assessments and
          internal control reviews recommended by
          OMB Circular A-123;

      o   Changes in the program conditions      or
          particular vulnerability of the



                            14
         organization, program, activity, or
         function to problems or deficiencies;

     o   Current and potential dollar magnitude          and
         likely benefits of a review on the
         efficiency or effectiveness of CFTC
         programs and operations;

     o   Management priorities      and   improvements
         that may be possible;

     o   Results of audits of CFTC programs and
         operations by other Federal agencies; and

     o   Availability of audit resources and the
         potential 'opportunity costs to the agency.

    The audit agenda and summary of progress for
each audit which has not yet been completed is
summarized below.  New agenda items periodically
will be added, as appropriate, along with a
description of the audit objective for each.

1.   Review   of   Enforcement   Information   Requirements

Objectives.

    The mission of the Division of Enforcement is
to investigate and prosecute fairly and
effectively violations of the Commodity Exchange
Act and the Commission's regulations in order to
safeguard the integrity of U.S. futures and
options markets and to protect market participants
and futures and options customers. In the course
of its activities, the division, with headquarters
and regional components, plans and follows an
often complex course to achieve its objectives and
receives and creates a huge volume of documents
which must be logically stored and regularly
accessed.  To support the accomplishment of these



                             15
tasks, the division is relying on a collection of
very old manual and automated systems to track the
progress of activities and to store and retrieve
documents.  The objectives of this review are to
determine what the informatoion needs of all levels
in the division are, whether the information needs
are being met, and if the required information can
be created, stored, and.retrieved in a more
effective and efficient manner.

Status.

    The joint OIG/Enforcement team produced
extensive and detailed narrative flow charts of
the current operational and administrative
functions and processes of the Division of
Enforcement and delivered them to the Division of
Enforcement and the Office of Information
Resources Management (OIRM).  These products were
designed to inform the analysts in OIRM of the
inner workings of the Division of Enforcement and
to serve as the base on which the information
requirements of the Division of Enforcement will
be defined.

     In September 1997, in a joint meeting of
representatives of the Division of Enforc~ment,
the Office of the Inspector General, and OIRM, the
principals made commitments of six staff years of
effort from OIRM and approximately three staff
years of effort from Enforcement to define the
system requirements of Enforcement.

     The Division of Enforcement and OIRM agreed
that the first priority was the development of a
system to track documents in the Division in
accordance with the Division's Enforcement
Procedure Number 3.   The second phase was devoted
to installing a system to track production within
the Division and to report that information in the



                         16
required formats to management of the Division.
Phase three will concentrate on moving the
functions of the attorneys and investigators from
paper to computer screen and using the resulting
information to improve the tracking of
productivity information and the sharing of
information within the Division.

     The final version of the first phase of what
is now being called "the Enforcement Modernization
Project" was delivered to the Division of
Enforcement in May 1998.   This Enforcement
Procedure Number 3 System is now being used at all
locations of the Division.   The second phase, a
system which produces the monthly status reports
from all parts of the Division and maintains on
screen data on the current status of all matters
within the Division, has been completed.    Training
in the use of this system was completed during
March 1999.   Refinements to the monthly status
report system are expected to be completed before
the end of the calendar year.

      Phase Three, designed to present the
Enforcement Division with a case management,
litigation support, and document management
system, to tie together the first two systems with
this new system, and to automate as many of the
remaining Enforcement Division processes as
po s sib Ie, beg a.n wit h a s u r v e y 0 f a p pro p ria t e o f f-
the-shelf systems and an investigation of
currently available software and hardware which
may meet the bulk of identified needs.
Difficulties in maintaining contractor resource
levels led to delays in the pursuit of Phase 3.                       A
team consisting of staff from the Division of
Enforcement, the Office of Information Resources
Ma~agement, and contractor personnel has been
engaged in a review of available off-the-shelf
case management, litigation support, and document



                                  17
management software since the beginning of
Calendar Year 2000.   This review will produce a
comprehensive list of system requirements.   This
review is expected to be completed in the next few
months and to be followed by the issuance of a
Request for Proposals and s.election of a system by
the end of the year.

2.   Audit of CFTC's Lease of Space -   Washington,
     D.C.

Objective.

    The objective of this audit is to determine if
the Commission is complying with the requirements
of the lease of space for its headquarters office
in Washington, D.C.   The particular focus will be
on the appropriateness of all base rental and
escalation payments made under the lease.   The
audit will cover lease payments from the inception
of the lease to date.

Status.

    The OIG has begun reviewing the lease document
and developing its audit program.  This audit is
expected to be completed before the close of the
next reporting period.

3.   Review of Agency Compliance with GPRA.

Objective.

     The Government Performance and Results Act of
1993 requires federal agencies to develop
strategic plans, prepare annual plans setting
performance goals, and report annually on actual
perfor~ance compa~ed to goals.    The first report
was due in March 2000.    The objective of this
review is to determine how effectively the



                          18
Commission is complying with GPRA's terms.  This
will include an examination of the performance
measures devised by the Commission and the systems
used for gathering the data to report on those
performance measures.

Status.

     In response to CongressLonal interest, the
Office of the Inspector General consulted with and
advised the Commission's operating divisions
concerning the GPRA requirements.   The DIG
reviewed the Commission's FY 2001 Annual
Performance Plan before its submission to
Congress. In conjunction with other federal
agencies' Inspectors General, the OIG is
participating in the development of "best
practices" for adhering to requirements of GPRA.



                 GAO LIAISON

    The OIG is charged with providing policy
direction for, and conducting, supervising, and
coordinating audits and investigations relating to
CFTC programs and operations.   In addition, the
OIG is required to recommend policies for, and
conduct, supervise, and coordinate with other
Federal agencies, state and local Governmental
agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the
economy, efficiency, and effectiveness of CFTC
programs and operations.

    GAO also conducts audits of CFTC activities,
and DIG plans its audits so as not to duplicate
GAO's efforts.  Moreover, OIG in its audit
activities identifies the goals of each audit and




                        19
the methods of reac.hing the goals SQ as to
minimize the requirements placed on CFTC
resources.




                         20
            STRATEGIC PLAN
               FOR THE
   OFFICE OF THE INSPECTOR GENERAL

INTRODUCTION

    The Office of the Inspector General (OIG) in
the Commodity Futures Trading Commission (CFTC)
was created in accordance with the Inspector
General Act of 1978 (P. L. 95-452), as amended by
the Inspector General Act Amendments of 1988 (P.L.
100-504).  The OIG was established to create an
independent unit to:

   o   Promote economy, efficiency, and
       effectiveness in the administration of
       CFTC programs and operations and to detect
       and prevent fraud and abuse in such
       programs and operations;

   o   Conduct and supervise audits and
       investigations relating to the
       administration of CFTC programs and
       operations;

   o   Review existing and proposed legislation
       and regulations and to make
       recommendations concerning their impact on
       the economy and efficiency of CFTC
       programs and operations or the prevention
       and detection of fraud and abuse; and

   o   Keep the Chairman and Congress fully
       informed about any problems or
       deficiencies in the administration of CFTC
       programs and operations and provide




                        21
        recommendations for correction   o"f   these
        problems or deficiencies.

     Accordingly, the OIG has established three
programs to carry out its r~sponsibilities:
audit, investigation, and legislative and
regulatory review.   A summary of those p~ograms
follows.

AUDIT

    The primary objectives of the OIG are to
promote long-term efficiency and effectiveness in
the administration and operation of the Commission
and to protect against fraud and abuse.

    The key to effectively and efficiently
managing the Commodity Futures Trading Commission
is information.   Top level managers and decision
makers require a steady stream of organized data
on the effects of their policy decisions and
resource allocations on the operations of the
Commission.  Once having made the decision to
change resource levels or policy, managers must
receive accurate and timely reports of the
operational effects of their decision so they can
determine if the change is in the direction and of
the magnitude predicted.   In the absence of such
information, top level managers cannot adequately
perform their jobs.

    A number of obstacles to acquiring and
transmitting the desired information to decision
makers may exist in some programs.   Principal
among them is the Commission's apparent difficulty
in many instances in tracking the progress of a
particular action across organizational lines
within the Commission.




                         22
     A simple example is the Reparations Program
prior to the installation of an DIG recommended
unified, Commission-wide tracking system.
Complaints are received and processed and hearings
are held in the Office of Proceedings; appeals of
initial decisions in reparations cases are
transmitted to the Office of General Counsel where
proposed Commission opinions are drafted; and
appeals are decided by the Commission with the
paperwork being handled by the Office of the
Secretariat.   Each office involved in the process
had a separate tracking system without ties to the
tracking systems in the offices preceding them or
following them in the process.   Each office
treated the case as if it were brand 'new to the
Commission when they received it.   As a result,
there was no provision for tracking information
across organizational lines.   If the Chairman
wanted to know how much time was spent. on the
average reparations case of a particular
description at each stage in the process, that
information was· unavailable without an extensive
expenditure of manual labor.

    A related problem is the difficulty the
Commission has in associating resources devoted to
an activity with the results of that activity.
The Commission does a good job of tracking
resources expended.  It can determine how much
staff time and material at what cost was spent in
a particular activity.   Some Commission
organizations can even associate costs with
particular projects.   What a program manager may
have great difficulty doing, however, is telling a
decision maker that for a specific level of
increase in resources, the program manager will
deliver a specific level of increased output.
Without this information from all programs
competing for limited resources, decision makers
cannot make reasoned resource allocation



                        23
judgments.  Decision makers are forced   to   rely on
intuition and anecdotal evidence.

     To increase the efficiency and the
effectiveness of the management of CFTC programs
and operations, the OIG wil·l, in addition to the
conduct of mandatory audits, concentrate its audit
resources on the identification of information
voids and the lack of continuity in the flow of
information across organizational lines from the
beginning of a process until its conclusion.   The
OIG will recommend the implementation of any
system improvements where the benefits of
implementing the changes exceed the costs.

    In addition to our efforts to bring technology
to bear on the information requirements of the
Commission, the OIG has been following the
Commission's .development of measures and systems
of measurement in response to the Government
Performance and Results Act (GPRA).   As the
Commission implements GPRA, the OIG will devote
significant resources to monitoring agency
performance to insure that the data is accurately
gathered and that the measures reported are the
best available for demonstrating program
performance.

INVESTIGATION

    The Inspector General Act of 1978, as amended,
provides that the Inspector General may receive
and investigate complaints or information from the
Commission's employees concerning the possible
existence of an activity constituting a violation
of law, rules or regulations, or mismanagement,
gross waste of funds, abuse of authority or a
substantial and specific danger to the public
health and safety.




                        24
    The OIG has to date conducted only a reactive
investigative program chiefly relying on
unsolicited employee complaints as the source of
investigative leads.  This reactive program has
resulted in only a handful of investigations per
year.  This strategy was followed because the OIG
believed that an independent regulatory agency
such as CFTC without grant money or substantial
contracts to award was not likely to generate a
substantial investigative workload.

    To insure that employee complaints could
easily reach the OIG, a 24 hour hotline was
established in February 1993 to receive
complaints.  The hotline's existence ·is publicized
on the back cover of the agency-wide telephone
book and in this semiannual report.

    Because of the reactive nature of the OIG's
investigative program, no investigative agenda has
been established.

LEGISLATIVE AND REGULATORY REVIEW

    Because of the importance of this activity in
an economic regulatory agency, the OIG reviews
proposed and final CFTC regulations and
legislation and selected exchange rules using five
basic criteria:  Whether the agency:   (1) has
identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through
case study or data analysis a clear link between
the proposed solution and the identified
problem(s); (3) has specified clearly the means to
effectively and efficiently enforce the proposal;
(4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can
reasonably document that the proposal will yield
positive net benefits over the long term; and (6)




                         25
has met the requirements          of   the
                                        Regulatory
Flexibility Act and the         Paperwo~k Reduction Act.

    The Regulatory Flexibility Act requires the
agency to evaluate the impact of its regulations
on small entities.  The Paperwork Reduction Act
requires the agency to manage effectively and
efficiently its information collections so that
they ar~ the least burdensome necessary to achieve
the stipulated objectives.

    Because the OIG does not initiate legislation
or, generally, regulations, the OIG legislative
and regulatory review program is reactive to the
legislative and regulatory proposals developed by
others.  Accordingly, no independent legislative
and regulatory review agenda has been established.


                          AUDIT AGENDA

ANNUAL AUDITS

    The   following     audit   is performed on       an   annual
basis.

Audit of Compliance with the Federal Managers'
Financial Integrity Act

      In support of OMB Circular A-123 (Revised),
the Inspector General will evaluate, provide
technical assistance, and advise the agency head
a-s t-o wh e the r the age n c y 's rev i e wan d e val u a t ion
process was conducted in accordance with the
circular's requirements.

OTHER AUDITS

    The OIG intends to focus the balance of its
audit resources on insuring that the Chairperson,
the Commissioners, and program managers have



                                 26
timely, useful information on the progress of
CFTC's programs in meeting their goals and
objectives.  For example, emphasis will be placed
on determining whether all managerial levels
engaged in a process can track the progress of
their various programs.  The tracking systems
required in many, though not all, programs will
cross formal organizational lines.

     These audits will entail a cataloging and
description of all of the manual and automated
systems used by an organization to gather
information on its use of resources, the results
of the devotion of those resources (including
definitions of measurements of accomplishment),
and the reporting of results and associated costs
to the upper level managers in the Division and to
the Chairman and the Commissioners.   Cataloging of
these decision support systems will be followed by
an assessment of whether all concerned officials
are timely receiving the information they require
to efficiently allocate resources to those uses
which best accomplish the priorities of the
Commission.   If any elements are lacking in the
information systems, they will be identified and
improvements will be recommended if they can be
implemented in a cost/beneficial manner.

    If recommendations are successfully
implemented, the proposed systems should allow the
Chairman, the Commissioners, and concerned program
managers to track progress of a particular program
across organizational lines and to quickly
determine the effects, if any, of changes in
policy, procedure, or staffing.

    The first step in accomplishing this goal will
be to concentrate on documenting, and recommending
the improvement and/or development of tracking




                         27
systems in every program element   throughout   the
Commission.

RESOURCES REQUIRED

    The OIG estimates that approximately one and
nine-tenths staff years of effort will be devoted
over each of the next five years to the audits
described in "Other Audits" above;  The "Annual
Audits" are expected to consume approximately one-
tenth staff year per year.




                        28
     CONTACTING THE OFFICE OF THE
          INSPECTOR GENERAL
    The eIG is located at 1155 21st Street N.W.,
Washington, D.C. 20581.  The telephone number is
(202)418-5110.  The facsimile number is (202)418-
5522.  The hotline number is (202)418-5510.
Regular business hours are between 8:30 AM and
5:00 PM, Monday through Friday, except Federal
holidays.




                        29
                                   Table 1
                    Reports Issued with Questioned Costs
                     (October 1,1999 - March 31, 2000)




                                                           Dollar Value
                                          Number           (Thousands)
                                                   Questioned    Unsupported

A.   For which no management decision
     has been made by the
     commencement of the reporting
     period                                  o         o              o·
B.   Which were issued during the
     reporting period                        o         o              o
     Subtotals (A + B)                       ·0        o              o
c.   For which a management decision
     was made during the reporting
     period                                  o         o              o
     (i)    dollar value of
            disallowed costs                 o         o
     (ii)   dollar value of
            costs not disallowed             o         o
D.   For which no management decision
     has been made by the end of the
     reporting period                        o         o              o



                                    30
                                     Table 2
                   Reports Issued \vith Recommendations
                     That Funds be Put to Better Use
                    (October 1,1999 - March 31, 2000)


                                                          Dollar Value
                                                Number    (Thousands)

A.   For which no management decision
     has been made by the
     commencement of the reporting
     period                                       0            0

B.   Which were issued during the
     reporting period                             0            0

     Subtotals (A + B)                            0            0

c.   For which a management decision
     was made during the reporting
     period                                       0            0

     (i)    dollar value of
            recommendations that
            were agreed to by management          0            0

     (ii)   dollar value of
            recommendations that
            were not agreed to by
            management                            0            0

D.   For which no management decision
       has been made by the end of the
       reporting period                           0            0




                                           31
        The InspectorGeneral
        needsyourhelpto
        assurethe integrity of
        CFTC's programs.



Report FRAUD, WASTE
 or ABUSE to the
INSPECTOR GENERAL

HOTLINE
(202)418-5510
    Office of the Inspector General
 Commodity Futures Trading Commission
        1155 21ST Street, N.W.
        Washington, D.C. 20581          "
